     FORT WORTH DISTRICT OFFICE
                Limited Audit of Financial and Administrative Controls

                             INTRODUCTION

The Office of Inspector General conducted a limited audit of selected financial and
administrative controls in the Commission's District office in Forth Worth, TX (FWDO).
The audit procedures included interviewing FWDO staff, reviewing supporting
documentation, and conducting limited tests of transactions. The purpose of the audit was
to provide the Commission with negative assurance concerning these controls1. We
performed our audit in September 2004, in accordance with generally accepted
government auditing standards.

                              BACKGROUND
The Fort Worth District Office assists the Central Regional Office in Denver, CO, in
carrying out the Commission's programs, subject to Commission oversight, in Arkansas,
Colorado, Kansas, Nebraska, New Mexico, North Dakota, Oklahoma, South Dakota,
Texas, Utah and Wyoming. The FWDO exercises a broad range of financial and
administrative functions, including: time and attendance; purchasing; travel
arrangements; property management; and budgeting.

                             AUDIT RESULTS
During the limited audit described above, no material weaknesses in the FWDO's
financial and administrative controls came to our attention. We informally discussed one
non-material finding and recommendation with the FWDO. Management generally
concurred with the finding and is implementing the recommendation.




1
  Negative assurance means that no material internal control weaknesses came to our
attention during our limited audit.


FORT WORTH DISTRICT OFFICE (AUDIT 396)                             DECEMBER 3, 2004
